        Management Advisory Report


GOVERNANCE: Injury Claims Trend Data for
Fiscal Years 2010 through 2013




                   Report No. OIG-MAR-2014-008 | July 17, 2014
This page intentionally left blank.
                                                                                                            2
                             Amtrak Office of Inspector General
         Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
            Management Advisory Report No. OIG-MAR-2014-008, July 17, 2014

Summary of Results
We analyzed recorded incident 1 data on 16,288 claims that occurred from FY 2010
through FY 2013. Our analysis shows settlement payments, judgment payments, and
other cost data for the fiscal year in which the claimant said the injury occurred—not
the year in which payments were made. Therefore, all payments and costs associated
with a claim for an injury that occurred in FY 2010 are allocated to that year. We show
the detailed results of our work in Appendix B, and key highlights are summarized
below:

    •   All claims. The company paid employees $63 million and has an estimated
        remaining liability 2 of $46.7 million on 4,658 employee claims. Comparatively,
        passengers were paid $16.1 million and may receive another estimated
        $13.4 million on 9,057 claims. Trespassers, invitees, and other claimants were
        paid $24.5 million and may receive another estimated $13.5 million on
        2,573 reported claims. (See Appendix B, page 2.)
    •   Employee claims. Most employee claims (81 percent) are settled directly without
        legal representation or lawsuits. Claims that go through legal proceedings cost
        the company $84.3 million ($46.3 million paid and $38 million in estimated
        remaining liability); claims settled directly cost $25.3 million—$16.7 million paid
        and $8.6 million in estimated remaining liability. (See Appendix B, page 4.)
    •   Trend of employee settlement payment. For FY 2011, the payments for
        employee settlements and the remaining estimated liability was $30,000; for
        FY 2012, $22,000; and for FY 2013, $15,000. However, that data is incomplete
        because employees have three years from the date of the incident to file a claim.
        Our analysis of data for FY 2007 through FY 2010—years for which all claims
        have been filed—show that the company paid $32,600 in FY 2007; $34,200 in
        FY 2008; $30,400 in FY 2009; and $29,350 in FY 2010 per claim. This suggests that




1 The company’s claims information system defines an “incident” as an injury or accident that can result
in multiple claims, depending on the number of people involved in that incident. All recorded incidents
are potential claims against the company; however, all claims do not result in a payment. Approximately
61 percent of all reported and closed claims resulted in payment.
2
 The estimated remaining liability is calculated by deducting the amount of money paid on open claims
for such things as advances, railroad retirement taxes, supplemental sickness benefits, and Medicare set-
aside costs from the initial Estimate of Liability that was developed when the claim was opened.
                                                                                     3
                         Amtrak Office of Inspector General
     Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
        Management Advisory Report No. OIG-MAR-2014-008, July 17, 2014

    the company may be underestimating its liability for open claims in FY 2012 and
    FY 2013. (See Appendix B, page 5.)
•   Trend of employee claims. The number of claims reported by employees
    increased by 70 percent—from 757 in FY 2007 to 1,285 in FY 2013. According to
    Claims group officials, the increase may be the result of employees’ better
    understanding of reporting requirements. In 2009, the company started a safe-to-
    safer program that encouraged employees to report workplace injuries. (See
    Appendix B, page 5.)
•   Employee claims by years of service. Employees in their initial years of
    employment—less than 10 years—made relatively more claims than employees
    with longer service. Employees with 30 or more years of service had the most
    expensive claims, averaging about $47,000 per claim. (See Appendix B, page 7.)
•   Number of employee claims by station. Employees assigned to New York’s
    Penn Station had the most claims—395 (8.5 percent of the total). Employees
    assigned to Philadelphia’s 30th Street Station had the most costly claims—almost
    $7.9 million paid and $4.6 million in estimated remaining liability. (See Appendix
    B, page 9.)
•   Number of employee claims by department. The Transportation department
    had the most employee claims, 2,107 (45.2 percent of the total); the most costly
    claims —$29.7 million paid and almost $18.8 million in remaining estimated
    liability. (See Appendix B, page 10.) Train conductors had the highest number of
    claims (11.6 percent of the total) and the most costly claims—$8.2 million paid
    and $4 million in remaining estimated liability. (See Appendix B, page 11.)
•   Number of employee claims by union. Members of the Amtrak Service Workers
    Council—mainly onboard service attendants and chefs—had the most reported
    claims (14.4 percent of the total) compared to other unions. Members of the
    Brotherhood of Maintenance of Way Employees on Northeast Corridor—mainly
    Engineering department railroad crews—had the most expensive claims
    ($14.6 million paid, and $8.5 million in remaining estimated liability). (See
    Appendix B, page 12.)
•   Types of injuries. The most frequent type of employee injury claims (23 percent)
    were sprains. Injury settlements for sprains also cost the company the most—
    nearly $19.3 million paid and $10.1 million in estimated remaining liability. (See
    Appendix B, page 13.)
                                                                                         4
                            Amtrak Office of Inspector General
        Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
           Management Advisory Report No. OIG-MAR-2014-008, July 17, 2014

   •   Causes of claims. Lifting, bending, and pulling were the most frequently cited
       injuries, accounting for 14 percent of claims. Slipping, tripping, and falling on
       level surfaces accounted for the most expensive employee claims—$13.5 million
       paid and $8.9 million in estimated remaining liability. (See Appendix B, page 14.)
   •   Multiple employee claims. Almost 30 percent of the claims (1,382) involved
       employees who have filed more than one claim. These claims accounted for
       about $24 million—22 percent of the total settlement amount paid or estimated to
       be paid. (See Appendix B, page 18 and 19.)

Our analysis shows various injury claim trends and patterns. We believe that this data
provides management with information that will be useful in managing the claims
process and potentially reducing injuries.
                                                                                          5
                            Amtrak Office of Inspector General
        Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
           Management Advisory Report No. OIG-MAR-2014-008, July 17, 2014

                                      Appendix A

                       SCOPE AND METHODOLOGY

This management advisory report provides information on employees and others who
have an injury incident recorded in the company’s claims information system. We
obtained data for all the claims from FY 2007 through FY 2013 (October 1, 2006, through
September 30, 2013) that were filed on or before February 28, 2014. We analyzed all the
claims for FY 2010 through FY 2013, and extended one analysis to FY 2007 to FY 2009
employee claim data in order to present a longer universe of profile and trend data.

Using ACL, we performed several tests to analyze the data; our methodological
approach was to profile the data and identify the trends on injury claims. We performed
our work from March through June 2014. We conducted this analysis in accordance
with standards we developed for alternative products. Certain information in this
report has been redacted due to its confidential nature.

Internal Controls
Although we did not conduct a detailed assessment of the adequacy of internal controls
for the claims data, we did validate the results of our analysis. We selected samples of
test results and compared them with the source data to ensure that automated
programs were producing accurate results based on the established ACL test criteria.


Use of Computer-Processed Data
To achieve our objective, we relied on computer-processed data in Amtrak’s claims
database. We loaded this data into ACL and then selected a sample of 33 out of
4,658 employee claims to compare them against source data in the claims information
system in order to reasonably assure that the data was accurate. Based on this test, we
concluded that the data are sufficiently reliable to meet our objectives.


Prior Report
We reviewed the following audit report for potential relevance to our work:

   •   Claims Program: Use of Best Practices Would Strengthen Management Controls (OIG-
       A-2012-016, August 14, 2012)
                                                                                   6
                           Amtrak Office of Inspector General
       Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
          Management Advisory Report No. OIG-MAR-2014-008, July 17, 2014

                                     Appendix B

   INJURY CLAIMS TREND DATA FOR FISCAL YEARS 2010
                    THROUGH 2013

On April 28, 2014, we briefed the detailed results of our work to Law department
officials. Based on that briefing and feedback from Law department officials, we
developed the following final briefing.
                                                                         7




                          Appendix B


Governance: Injury Claims Trend Data for
    Fiscal Years 2010 through 2013

       Certain information in this report has been redacted due to its
                            confidential nature.



Management Advisory Report No. OIG-MAR-2014-008
                 July 17, 2014
                                                                                                                  8
Claims by Claimant Type
                                             Amount Paid: $24 million
 Amount Paid: $432 thousand
                                             Estimated Remaining Liability:
                                                                                            Total
 Estimated Remaining Liability:                                               - Claims: 16,288
                                             $11.3 million
 $2.2 million                                                                 - Amount Paid: $103.5 million
          675                     1898
                                                                              - Estimated Remaining Liability:
                                                                                $73.5 million
                                                                     4658




                                                                                     Amount Paid: $63.0 million
                                                                                     Estimated Remaining Liability:
                                                                                     $46.7 million
                          9057
                                                                                               Employee
                                                                                               Passenger
 Amount Paid: $16.1 million                                                                    Trespasser
 Estimated Remaining Liability:
 $13.4 million                                                                                 Other
                         Analysis on claims occurred between October 1, 2009, and September 30, 2013
                                                                                                   9
Trend by Claimant Type




                             Employee         Passenger




                            Trespasser        Other



            Number of Claims (in thousands)           Settlement paid or liability accrued (in millions)
                                                                                                                     10
Number of Employee Claims by Type

 Amount Paid: $16.7 million                                                                  Total
 Estimated Remaining Liability:                                                - Claims: 4,658
 $8.6 million
                                                                               - Amount Paid: $63 million
                                                                               - Estimated Remaining Liability:
                                                                                 $46.7 million

              3783 (81.2%)                                                            Direct Settlement

                                                                                      Attorney Represented
                                                              555 (11.9%)
                                                                                      Lawsuit




                                                                 320 (6.9%)         Amount Paid: $19.5 million
                                                                                    Estimated Remaining Liability:
 Amount Paid: $26.8 million
 Estimated Remaining Liability: $22.5                                               $15.5 million
 million

                             Approximately 61% of the closed claims resulted in payment.
                                                                                                                                    11

               Employee Claims by Fiscal Year
              40.5                                                               1400
                                     Est. Remaining Liability      Amount Paid           Open
                                                                                                                                  1,285
                                                                                         Closed                           1,216
              35.5                                     $35.0
                                                                                 1200                             1,169
                             $31.6
                              $0.4                                                                                 158     274
              30.5                            $29.0                                                         988                   465
                                                       $10.9                     1000           923
                                                                                                            40
                                                                $26.2                             7
                     $24.7                     $5.6
              25.5                   $23.6
                     $1.3                                                               757           777
                                                                                  800
In Millions




                                                                                         4             19
                                      $4.2
              20.5                                                      $19.4

                                                                $15.5             600
              15.5           $31.2                                                                                1011
                                                                                                916         948            942
                     $23.4                    $23.4    $24.1            $14.7     400   753           758
                                                                                                                                  820
              10.5                   $19.4

                                                                                  200
               5.5                                              $10.7

                                                                        $4.7
               0.5                                                                  0
                     2007 2008 2009 2010 2011 2012 2013                                 2007 2008 2009 2010 2011 2012 2013

                             Notes:
                             1. Amount for claims paid over multiple years are accumulated in the year of Incident/accident.
                             2. Employees have 3 years to file a claim. Not all claims for 2011, 2012, and 2013 may have been filed.
                                                                                                                                                12
Employee Claims by Age Group
                                          Est.                  $50                                                                              1,800
Age Range   Number   Amount Paid    Remaining                                                                       1,695
                                      Liability                 $45                                                                              1,600

 0 to 17      2               $0             $0                 $40
                                                                                                                                                 1,400

 18 to 29    466      $3,247,659    $2,654,798                  $35
                                                                                                                                                 1,200
                                                                                                          1,111
                                                                $30
 30 to 39    780      $8,719,986    $7,341,686                                                                                                   1,000




                                                  In Millions
                                                                $25
 40 to 49   1,111    $11,688,676   $12,029,641                                                                                                   800
                                                                                                780
                                                                $20
 50 to 59   1,695    $29,770,206   $17,174,768                                                                                                   600
                                                                $15                                                           561
                                                                                      466
 60 to 69    561      $9,165,561    $5,774,293                                                                                                   400
                                                                $10

 70 to 79    38         $162,700     $936,500                   $5                                                                               200

                                                                                                                                    38
 Over 79      5         $225,000     $775,000                   $0         2                                                               5     -
                                                                      0 to 17 18 to     30 to     40 to     50 to     60 to     70 to Over 79
                                                                               29        39        49        59        69        79
  Total     4,658    $62,979,787   $46,686,687
                                                                           Est. Remaining Liability        Amount Paid          Number
                                                                                                                                     13
Employee Claims by Years of Service
                                                                   $25                                                                    800
                                       Est.
Years of             Amount                   Average                                736         746
         Number                  Remaining
Service                Paid                  per claim                                                                                    700
                                   Liability
                                                                   $20
No Hire
            31        $111,890     $547,500    $21,271                                                       605                          600
 Date                                                                                                  573
 0 to 1    736      $6,617,465    $6,956,351   $18,443
                                                                                                                                          500
                                                                   $15
 1 to 2    340      $3,525,771    $3,198,681   $19,778                                                                   461           463
                                                                                                                   438




                                                         In Millions
                                                                                                                                          400
 2 to 5    746      $8,009,189    $6,045,484   $18,840
                                                                                           340
 5 to 10   573      $5,985,183    $4,941,432   $19,069             $10
                                                                                                                                          300
                                                                                                                               265
10 to 15   605      $7,384,242    $4,017,000   $18,845
                                                                                                                                          200
15 to 20   438      $5,533,268    $2,822,500   $19,077                 $5

20 to 25   461      $7,881,226    $6,214,849   $30,577                                                                                    100

25 to 30   265      $4,302,267    $3,748,708   $30,381                          31
                                                                       $0                                                                 0
 30 plus   463     $13,629,288    $8,194,181   $47,135                       No 0 to 1 1 to 2 2 to 5 5 to 10 to 15 to 20 to 25 to 30
                                                                            Hire                       10  15    20    25    30 plus
 Total     4,658   $62,979,787   $46,686,687   $23,544                      Date
                                                                                 Est. Remaining Liability   Amount Paid      Number
                                                                                                                                                 14

              Claim Settlement Amounts and Additional Costs
              40.5                                                                                               Total Additional Cost for Claim
                                            Settlement Paid or Liability Accrued                                 Processing Incurred for Fiscal Years
                                                                                                                 2010 to 2013 – $39.4 Million
                                            Additional Cost for Claim Processing
                                    $35.0
              35.5                                                                                $1.0
                                                                                                                                 Surveillance Costs
                                                                                                                        $0.1
              30.5                                                                 $0.3                      $6.4
                     $29.0                                                                $6.1
                                                                                                                                 Consulting Fees
                                                  $26.2
              25.5                                                                                                               Medical Costs
In Millions




              20.5                                               $19.4                                                           Medical Management
                                                                                                                                 Costs
                                                                                                                                 Legal Fees
              15.5
                         $13.5
                                        $12.4
                                                                                                         $25.5                   Miscellaneous Costs
              10.5
                                                          $8.4

                                                                         $5.1
               5.5                                                                               Additional costs account for up to
                                                                                                  36% ($39.4M/$109.6M) of the
               0.5
                                                                                                     total settlement amount
                      2010           2011           2012           2013
                                 Note: The additional costs do not include some legal fees, the fee paid to Managing Care Managing
                                 Claims (MCMC) for handling claimants’ medical needs, and company costs of the Claims department.
                                                                                 15
Employee Claims by their Work Location (Top Ten)
                                                                    Est. Remaining
 Work Location                     Number     %      Amount Paid
                                                                           Liability

New York Penn Station               395     8.5%       $5,350,665        $3,248,675

Los Angeles Offices                 268     5.8%       $4,120,894        $1,351,500

Philadelphia 30th Street Station    259     5.6%       $7,896,574        $4,575,000

Beech Grove Maintenance Facility    176     3.8%       $2,083,016          $984,288

Chicago Crew Base                   158     3.4%       $2,552,582        $1,379,500

Transportation Bldg.                156     3.3%       $1,919,571        $1,913,362

NY Sunnyside Yard                   153     3.3%       $1,898,438        $3,165,500

Ivy City Maintenance Facility       136     2.9%       $2,440,017        $1,521,625

Bear Car Shop                       128     2.7%         $958,299         $1,873,110

CA Reservation Sales Office         123     2.6%          $45,000          $271,000

Other Work Locations                2,706   58.1%     $33,714,731       $26,403,125

Total                               4,658   100.0%    $62,979,787       $46,686,687
                                                                                       16
Employee Claims by Department (Top Ten)
                                                                          Est. Remaining
 Department                              Number     %      Amount Paid
                                                                                 Liability

Transportation                            2,107   45.2%     $29,700,635       $18,753,897

Mechanical                                1,126   24.2%     $13,388,694       $12,583,031

Engineering                               867     18.6%     $16,745,079       $11,654,931

Police                                    219     4.7%       $1,046,712        $1,700,328

Marketing and Sales                       172     3.7%         $514,046          $415,000

Finance                                    68     1.5%         $816,934          $451,000

<Department Description Not Available>     50     1.1%         $613,452          $747,500

Office of Inspector General                18     0.4%         $135,536          $313,000

Human Capital                              12     0.3%            $250            $58,000

EVP and General Counsel                    6      0.1%          $15,000                 $0

Other Departments                          13     0.3%           $3,450           $10,000

Total                                     4,658   100.0%    $62,979,788       $46,686,687
                                                                                           17
Employee Claims by Occupation (Top Ten)
                                                                  Amount      Est. Remaining
 Occupation                 Department        Number     %
                                                                    Paid             Liability

Conductors                 Transportation      542     11.6%     $8,252,771        $4,060,962

Engineers                  Transportation      332     7.1%      $5,846,748        $2,876,275

Service Attendants         Transportation      316     6.8%      $5,087,811        $2,231,166

Coach Cleaners               Mechanical        179     3.8%      $1,695,066        $1,170,074

Police Officers                Police          175     3.8%       $982,052         $1,378,328

LSA Café/LNG               Transportation      172     3.7%      $1,891,557         $1,311,724

Ticket/Accounting Clerk    Transportation      137     2.9%      $1,518,646          $659,510

Carmen Journeymen            Mechanical        110     2.4%      $1,526,504        $1,220,667

R&I Clerk                 Marketing & Sales     99     2.1%       $121,671           $244,000
Electrical Journeymen        Mechanical         90     1.9%      $1,370,029          $432,222
Other Occupations              Various         2,506   53.9%    $34,686,931       $31,101,759

Total                                          4,658   100.0%   $62,979,786       $46,686,687
                                                                                                      18
Employee Claims by Union (Top Ten)
                                                                                         Est. Remaining
 Union                                                 Number     %      Amount Paid
                                                                                                Liability

Amtrak Service Workers Council (Chefs, LSAs, etc.)      669     14.4%      $9,317,437         $6,154,890
Brotherhood of Maintenance of Way Employees on
                                                        628     13.5%     $14,558,863         $8,526,045
Northeast Corridor
Joint Council of Carmen, Helpers and Coach Cleaners     544     11.7%      $6,248,605         $5,622,851
United Transportation Union–Off Corridor (Conductors
                                                        346     7.4%       $4,792,639         $1,984,300
and Assistant Conductors)
International Brotherhood of Electrical Workers
                                                        306     6.6%       $4,240,778         $2,969,045
(Electrical Journeymen)
Transportation Communication Union–Off Corridor
                                                        238     5.1%       $2,395,971         $1,025,260
(Station Attendants)
Brotherhood of Locomotive Engineers–Off Corridor        234     5.0%       $4,476,173         $2,101,275
Fraternal Order of Police                               214     4.6%       $1,046,712         $1,695,328
United Transportation Union–Northeast Corridor
                                                        205     4.4%       $3,720,131         $2,436,662
(Conductors and Assistant Conductors)
Transportation Communication Union–Off Corridor–
                                                        167     3.6%         $514,046           $415,000
Reservation and Sales Office
Other Unions                                            1,107   23.8%      $11,668,432       $13,756,030
Total                                                   4,658   100.0%    $62,979,787        $46,686,687
                                                                                          19
Employee Claims by Injury (Top Ten)
                                                                             Est. Remaining
 Type of Injury                             Number     %      Amount Paid
                                                                                    Liability

Sprain                                       1,096   23.5%     $19,275,208       $10,115,405
Contusion                                    893     19.2%      $8,696,449        $6,879,851

<No Injury Description Available>            454     9.7%       $2,053,717        $1,168,500

Laceration                                   409     8.8%       $1,556,698          $491,737

Hearing Loss Occupational                    319     6.8%         $103,500          $150,000

Other <an injury type in Claims database>    173     3.7%       $4,610,473        $1,014,250

Fracture                                     149     3.2%       $7,540,829        $4,412,549

Other Respiratory                             98     2.1%         $426,101          $447,500

Sprain/Strain                                 95     2.0%       $2,131,028        $3,291,760

Strain                                        87     1.9%       $2,631,908          $958,425

Other Injury Types                           885     19.0%     $13,953,876       $17,756,710

Total                                        4,658   100.0%    $62,979,787       $46,686,687
                                                                                               20
Employee Claims by Cause (Top Ten)
                                                                                  Est. Remaining
 Cause                                           Number     %      Amount Paid
                                                                                         Liability

Lifting Incident, Including Bending, Pulling      652     14.0%      $8,304,336        $7,770,407

Slip, Trip, Or Fall On Level Surface              626     13.4%     $13,476,971         $8,864,611

Struck By Flying Or Falling Object                371     8.0%       $7,042,097        $3,606,150

Standard Threshold Shift (Hearing Tests)          355     7.6%           $8,000                      -

Using Hand Tools Or Operating Shop Machinery      246     5.3%       $1,452,954          $836,500

Bumping, Walking, Or Running Into Fixed Object    241     5.2%       $1,095,938          $857,238

Repetitive Motion                                 229     4.9%       $7,324,424        $3,956,469

Insect, Animal, Or Vermin Bite                    182     3.9%          $67,710          $113,250

Exposure To Hazardous Substance                   167     3.6%         $406,470          $476,110

Other <a cause category in Claims database>       155     3.3%         $585,967           $50,500

Other Causes                                      1,434   30.8%     $23,214,920       $20,155,451

Total                                             4,658   100.0%    $62,979,787       $46,686,687
                                                                                                                   21
Top Ten Legal Firms Used by Claimants
                                                                                                     Claim Amount
Name                                                                    Number            %
                                                                                                             Paid
Rome Arata Baxley Stella LLC                                                56          12.3%                $4,667,635

Berman Sobin Gross Feldman Darby LLP                                        28          6.1%                 $5,221,954

The Moody Law Firm                                                          27          5.9%                 $2,415,247

Myers Lafferty Law Offices PC                                               26          5.7%                 $2,930,025

The Crow Law Firm                                                           21          4.6%                 $1,416,909

Dreesen Law Firm LLC                                                        18          4.0%                 $2,373,135

Cahill Goetsch Perry PC                                                     16          3.5%                  $932,577

Keller Goggin and Wilfred Warren                                            16          3.5%                 $2,259,044

Barish Rosenthal and Eddy Hiraldo                                           13          2.9 %                 $895,279

Coffey Kaye Myers Olley                                                     13          2.9%                 $2,335,948

Other Legal Firms                                                          221          48.6%               $16,714,092

Total                                                                      455         100.0%               $42,161,845

                                             Payment details as of March 14, 2014

                     Payments made to legal firms may include the settlement amount payable to employees.
                                                                                                                  22
Top Ten Medical Firms Used by Claimants
                       Sorted by Amount                                    Sorted by Number of Payments

                                      Amount      Number of                                      Number of     Amount
 Name                                                          Name
                                        Paid      Payments                                       Payments        Paid

Universal Smartcomp                  $1,156,681     5,179     Universal Smartcomp                 5,179       $1,156,681

Crozer Taylor Springfield             $494,441       24       Pro Physical Therapy                 753         $484,488

Pro Physical Therapy                  $484,488      753       Occupational Health Centers          731         $101,787
                                                              Proactive Work Health Medical
Glendale Adventist Medical Center     $339,953       12                                            727         $135,979
                                                              Center
MCMC LLC                              $323,379      303       Mercyworks Occupational Medicine     539         $166,046

Yale New Haven Health                 $266,956       29       Stoneriver Pharmacy Solutions        527          $82,247
Thomas Jefferson Universal
                                      $252,873       35       Techhealth                           523         $177,572
Hospital
Johns Hopkins Hospital                $246,883      117       Omega Medical Center DOHR            477         $152,997

Christiana Care                       $240,837      110       Methodist Occupational Health        460         $121,680

St. Mary Medical Center               $227,050       21       U.S. HealthWorks Medical Group       455          $79,575

Other Medical Firms                 $21,825,248    35,896     Other Medical Firms                 32,108     $23,199,737

Total                               $25,858,790    42,479     Total                               42,479     $25,858,790

                                         Payment details as of March 14, 2014
                                                                                   23
Top Ten Amtrak Claims Agents (Employee Claims)
                                                                      Est. Remaining
Name              Location           Number     %      Amount Paid
                                                                             Liability

Claim Agent 1    Washington           359     7.7%       $1,827,367                      -

Claim Agent 2    Los Angeles          326     7.0%       $2,521,959        $2,017,500

Claim Agent 3    Los Angeles          272     5.8%       $1,939,662          $943,500

Claim Agent 4    New York             258     5.5%          $15,000                      -

Claim Agent 5    Boston               253     5.4%       $2,587,912        $1,665,812

Claim Agent 6    New York             227     4.9%       $5,848,495        $3,809,277

Claim Agent 7    Philadelphia         208     4.5%          $25,000           $72,500

Claim Agent 8    Jacksonville         184     4.0%       $2,087,781        $1,283,261

Claim Agent 9    Baltimore            178     3.8%       $5,629,617        $3,839,824

Claim Agent 10   New Orleans          168     3.6%       $2,103,561        $2,321,138

Other Agents     Various Locations    2,225   47.8%     $38,393,434       $30,733,875

Total                                 4,658   100.0%    $62,979,787       $46,686,687
                                                                                                                   24
Top Ten Repetitive Claimants (sorted by Number)
                                                                                                      Est. Remaining
 Name                               Location                               Number   Amount Paid
                                                                                                             Liability

Employee 1                         Chicago Locomotive Shop                   6          $136,200                  $500

Employee 2                         Los Angeles Offices                       5           $12,650                         -

Employee 3                         New Orleans Station                       5            $9,750                         -

Employee 4                         REA Bldg                                  5                    -             $5,000

Employee 5                         Chicago Locomotive Shop                   5            $1,275                         -

Employee 6                         Conn Dot Commuter                         5            $5,174                         -

Employee 7                         Jacksonville Station                      5           $10,500                         -

Employee 8                         C&S HQ                                    5                    -          $250,000

Employee 9                         Penn Station                              4                    -                      -

Employee 10                        30th Street Station, Wilmington Shops     4           $12,000             $100,000

Employees with more than 1 claim   Various Locations                        1,333     $12,096,628          $11,486,286

Employees with 1 claim only        Various Locations                        3,276     $50,695,610         $34,844,901

Total                                                                       4,658     $62,979,787         $46,686,687
                                                                                                             25
Top Ten Repetitive Claimants (sorted by Amount Paid)
                                                                                                Est. Remaining
 Name                               Location                           Number   Amount Paid
                                                                                                       Liability

Employee 1                         Elk M/W Base, Perryville M/W Base     2          $400,000
                                                                                                                   -
Employee 2                         Ivy City Maintenance Facility         2          $375,000
                                                                                                                   -
Employee 3                         NW Base                               2          $352,500
                                                                                                                   -
Employee 4                         Chicago Locomotive Shop               2          $350,000
                                                                                                                   -
Employee 5                         Penn Station                          2          $304,500
                                                                                                                   -
Employee 6                         Chicago Crewbase                      2          $300,000
                                                                                                                   -
Employee 7                         Ivy City Maintenance Facility         2          $275,000
                                                                                                                   -
Employee 8                         Caltrain Main Office                  2          $275,000
                                                                                                                   -
Employee 9                         Los Angeles Offices                   2          $265,000
                                                                                                                   -
Employee 10                        30th Street Station                   4          $260,000
                                                                                                                   -
Employees with more than 1 claim   Various Locations                    1,360      $9,127,177        $11,841,786

Employees with 1 claim only        Various Locations                    3,276     $50,695,610       $34,844,901

Total                                                                   4,658     $62,979,787        $46,686,687
                                                                                   26
                             Amtrak Office of Inspector General
         Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
            Management Advisory Report No. OIG-MAR-2014-008, July 17, 2014

                                      Appendix C

                   ACRONYMS AND ABBREVIATIONS

ACL                  Audit Command Language

Amtrak               the company

Claims group         Tort Claims and Litigation Group

FY                   Fiscal Year

OIG                  Office of Inspector General
                                                                                 27
                           Amtrak Office of Inspector General
       Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
          Management Advisory Report No. OIG-MAR-2014-008, July 17, 2014

                                    Appendix D

                           OIG TEAM MEMBERS

Ed Stulginsky      Deputy Assistant Inspector General, Audits
Vipul Doshi        Senior Director, Audits
Vijay Chheda       Senior Director, Audits
Mark A. Little     Senior Director, Audits
Ben Davani         Senior Auditor, IT
Kim Tolliver       Consultant
Juan Morales       Consultant
            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         The Amtrak OIG’s mission is to provide independent,
                             objective oversight of Amtrak’s programs and operations
                             through audits, inspections, evaluations, and investigations
                             focused on recommending improvements to Amtrak’s
                             economy, efficiency, and effectiveness; preventing and
                             detecting fraud, waste, and abuse; and providing Congress,
                             Amtrak management, and Amtrak’s Board of Directors
                             with timely information about problems and deficiencies
                             relating to Amtrak’s programs and operations.


Obtaining Copies of OIG Available at our website: www.amtrakoig.gov
Reports and Testimony



To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:     www.amtrakoig.gov/hotline
                             Phone:   800-468-5469


Contact Information          David R. Warren
                             Assistant Inspector General, Audits

                             Mail:  Amtrak OIG
                                    10 G Street NE, 3W-300
                                    Washington D.C., 20002
                             Phone: 202-906-4600
                             Email: david.warren@amtrakoig.gov
